<html>
<title> - INTERNATIONAL CHILD ABDUCTION: THE ABSENCE OF RIGHTS OF ABDUCTED AMERICAN CITIZENS IN SAUDI ARABIA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




   INTERNATIONAL CHILD ABDUCTION: THE ABSENCE OF RIGHTS OF ABDUCTED 
                   AMERICAN CITIZENS IN SAUDI ARABIA

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2003

                               __________

                           Serial No. 108-67

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

89-969              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Staff Director
           Mindi Walker, Professional Staff Member and Clerk
                     Tony Haywood, Minority Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 2003.....................................     1
Statement of:
    Dornier, Debbie, mother of Sarah Saga........................    70
    Harty, Maura, Assistant Secretary, Consular Affairs, U.S. 
      Department of State........................................    21
    Saga, Sarah, American citizen abducted to Saudi Arabia in 
      1986.......................................................    59
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Prepared statement of....................................     8
        Prepared statement of Ms. Radwan, Saudi Embassy..........    46
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     2
    Dornier, Debbie, mother of Sarah Saga, prepared statement of.    73
    Harty, Maura, Assistant Secretary, Consular Affairs, U.S. 
      Department of State, prepared statement of.................    23
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    13
    Saga, Sarah, American citizen abducted to Saudi Arabia in 
      1986, prepared statement of................................    51
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    31

 
   INTERNATIONAL CHILD ABDUCTION: THE ABSENCE OF RIGHTS OF ABDUCTED 
                   AMERICAN CITIZENS IN SAUDI ARABIA

                              ----------                              


                        WEDNESDAY, JULY 9, 2003

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton and Watson.
    Also present: Representatives Ose and Maloney.
    Staff present: Mark Walker, chief of staff; Mindi Walker, 
professional staff member and clerk; Nick Mutton, press 
secretary; Mary Valentino, legislative director; Jonathan 
Dilley, legislative assistant; Tiara Wuethrich, press 
assistant; Kelly Lorenz, Will Drinkwater, Rob Rubenstein, and 
Sheri Strickler, staff assistants; Allison Ket, Christopher 
Orlando, and Peter Hamilton, interns; Tony Haywood, minority 
counsel; and Jean Gosa, minority assistant clerk.
    Mr. Burton. We are waiting on a couple of other Members. We 
just had these votes, and so bear with us for a couple minutes 
and then we will get started.
    The Committee on Government Reform will come to order. We 
have other Members that will be coming in, but we want to get 
started because Ms. Harty has limited time with us, and we want 
to make sure that she has a chance to hear some of the other 
witnesses before she leaves.
    A quorum being present, the Subcommittee on Human Rights 
and Wellness comes to order. I ask unanimous consent that all 
Members and witnesses' written and opening statements be 
included in the record. And without objection, so ordered.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T9969.001

[GRAPHIC] [TIFF OMITTED] T9969.002

    Mr. Burton. I ask unanimous consent that all articles, 
exhibits, and the extraneous or tabular material referred to be 
included in the record. And without objection, so ordered. And 
I ask that we allow Members who are not members of this 
subcommittee to participate in the hearing today and ask 
questions, because we have a number of members who are on the 
full committee that are very interested in this subject and 
would like to participate.
    Before I start with my opening remarks, I would just like 
to say that yesterday I was trying to get Ms. Harty here to 
testify on the second panel. And there is a supposedly, I 
guess, a protocol which says that members of the administration 
have to go first, and I don't have any problem with that. The 
problem that I have is that in some cases where you want to set 
the stage for government executive branch officials to respond 
to questions, in some cases I think it is imperative that they 
hear the problem. Now, Ms. Harty has agreed to see a copy of 
the tape because she is going to have to leave about a quarter 
to 4, and she said that she would answer questions that are 
relevant to issues that come up after she leaves. And I 
appreciate that very much. But I would just like to say that I 
was disappointed that Mr. Kelly, who is head of the legislative 
affairs branch down at the State Department, was very short 
with this committee, and he indicated that the last time we had 
a hearing of this type that we beat up on the person from the 
State Department who was testifying. I recall that hearing very 
well, and we didn't beat up on him, but we did ask him many, 
many questions that he could not answer. And we asked him those 
questions maybe several times.
    Now, I wanted to explain that to Mr. Armitage, and I called 
him two or three times yesterday, and he has been very helpful 
in the past but he wouldn't return my phone calls. So we kind 
of were stonewalled by the State Department yesterday, which I 
think is very disappointing. I do appreciate Ms. Harty, as I 
said before, being here, and she has been very helpful.
    The one thing I think is very important for the State 
Department to realize and the executive branch, and we have 
talked about this under the Clinton administration, the Reagan 
administration, and others, the Congress of the United States 
has oversight responsibilities over the executive branch. It is 
our responsibility to make sure that the executive branch and 
parts of the executive branch don't screw up. And if they do, 
we have the obligation to bring them down here to the Capitol 
and ask them questions. And sometimes those questions are hard, 
and sometimes the appearance is that we are grilling them. And 
maybe we do get a little tough sometimes, and for that I will 
apologize. But it is our responsibility to do that. And the 
State Department and the people who work there for the most 
part, in fact for entirely, they are appointed officials. They 
do not answer to the electorate. We do. And if something goes 
wrong in this government, we, the elected officials who are 
responsible to the constituents of this country, have the 
responsibility to bring the appointed officials down here and 
ask them questions. They are not a law unto themselves. They 
work for the people just like we do, but we are answerable to 
the people. And for that reason we have the responsibility to 
ask these questions.
    And I wanted to get that clarified today. And I hope, Ms. 
Harty, when you go back, you will tell Mr. Armitage, for whom I 
have great respect, because he has contacted me in the past and 
we have worked well together on this and other issues on issues 
like this in the past, tell him I am disappointed he didn't 
call me back yesterday, and I presume it is because Mr. Kelly 
told him what a horse's patootie I was. And so you tell Mr. 
Kelly also that. He is a former Marine and I don't want to 
fight with him because he could probably whip me, but tell him 
that he like everybody in the executive branch is answerable to 
the Congress and our oversight responsibilities, and we need to 
get along. OK? Thank you very much.
    Now I will go on with my opening statement.
    While I was chairman of the full Committee on Government 
Reform I initiated an investigation into the illegal 
kidnappings of American citizens to Saudi Arabia. There are 
several facts regarding Saudi Arabian law and culture that make 
these international child abduction cases noteworthy.
    First, Saudi law gives Saudi men extraordinary power over 
their wives and children. A Saudi man literally owns his wife 
and children. As a result, the wife or child of a Saudi man may 
not leave Saudi Arabia without his prior written permission. 
There have been many cases in which adult female American 
citizens have been unable to leave Saudi Arabia because they 
have not been able to obtain the written permission of their 
male guardian, regardless of their constitutionally guaranteed 
rights as American citizens.
    Second, Saudi Arabia is not a signatory nation to the Hague 
Convention on the Civil Aspects of International Child 
Abduction. The Hague Convention treaty puts into place general 
guidelines regarding how to handle international child 
abduction and international custody disputes. Accordingly, 
there are no legal standards governing the return of kidnapped 
children from Saudi Arabia, and there should be.
    Our investigation from the last Congress led to numerous 
hearings, several legislative proposals, and even a 
congressional delegation to Riyadh, Saudi Arabia in August 
2002.
    Although it has been nearly a year since that visit, I will 
never forget the tears on the faces of American women who 
literally risked their lives to come and talk to us. They were 
scared to death. We had women tell us that they were afraid 
their husbands would kill them, beat them half to death, or 
worse if they found out they talked to American Congressmen. 
Women told me: Put us in a box with our kids and put us in the 
belly of the plane, anything to get us out of here because of 
what's going on. And those are the kinds of things that you 
never forget, especially when you leave them behind and you 
know there is not much you can do about it. And I won't forget, 
also, how terrified they were they might face death or physical 
torture if they were anywhere near the U.S. Embassy because of 
their husbands worried about them trying to get away.
    These women live in a constant state of fear, and it is 
time that the American government does something about it. And 
Ms. Harty is going to talk to us about that today, and so will 
our witness who has been able to get out of Saudi Arabia.
    Because of the attention that the issue of international 
child abduction has received since we started this 
investigation, we have seen some marked improvements in the way 
that these situations are dealt with. Before, the custodial 
American parents were given no hope that their sons and 
daughters would ever be returned to them. Now we are starting 
to see some light at the end of the tunnel, although we have 
quite a ways to go before we completely emerge from the 
darkness. And we had some people who had their children 
kidnapped years ago, like my good friend back there, and they 
would not fall under new rules and guidelines that have taken 
place. And we are going to ask questions about them today and 
how we can do something to allow them to visit the United 
States and, if they choose to stay, stay here; if they choose 
to go back to Saudi Arabia, to go back there.
    Ms. Sarah Saga is here with us today and who until recently 
was held in Saudi Arabia against her will since she was 5 years 
old, and now she is 24. Just a month ago, she courageously 
risked her life and fled to the U.S. consulate in Jeddah, Saudi 
Arabia with her two children, Ibrahim and Hanin. Ibrahim is 5 
years old and her daughter is Hanin, she is 3 years old.
    After a 10-day stay in the U.S. consulate, Ms. Saga was 
able to secure safe passage for herself back to the United 
States to be with her mother, Ms. Debbie Dornier. Up until June 
24th of this year, they had not seen each other for nearly 20 
years. She was kidnapped, couldn't see her child for 20 years. 
Think about that, if you have kids. Unfortunately, the reunion 
was bittersweet for Ms. Saga who, in exchange for her freedom, 
had to leave behind her two children in the custody of their 
Saudi national father.
    Ms. Maura Harty, the Assistant Secretary of Consular 
Affairs for the Department of State, is also here with us 
today. Both she and Secretary of State Colin Powell have been 
working hard to bring back the American citizens who are being 
held against their will. I had the privilege of talking to Ms. 
Harty when she was about to be appointed to this position, with 
her and Colin Powell, and she assured me that she would do 
everything in her power to help bring American children back 
and help with this problem. So far she has been working in that 
direction, and we do appreciate that. She is here to update 
this committee on how the Department of State is handling these 
international child abduction cases.
    Also in attendance is Mr. Stuart Verdery, the Assistant 
Secretary of Policy for the Department of Homeland Security, 
and he is here to observe our proceedings today, and we 
appreciate that. The reason he is here is because we are going 
to be talking about visas and what kind of pressure we can put 
on Saudis and their extended families who are participants in 
the kidnapping of American children and what we can do to put 
pressure on them to bring these children back.
    We are also kind of surprised but happy to have scheduled a 
representative of the Saudi Embassy. Ms. Manal Radwan is 
scheduled to talk with us about the Saudi policy on the 
abductions of American citizens to Saudi Arabia. Up until this 
point, we couldn't get the Saudi Embassy to respond or 
participate, so we are glad that she is here today, and we will 
listen with interest to her testimony and have questions for 
her as well.
    Ms. Radwan will hopefully explain why the Saudi Government 
has not been more helpful in assisting the United States in 
these cases for years and years and years and what steps they 
plan to take to ensure the safe return of American citizens who 
wish to leave Saudi Arabia. We are also very interested to talk 
with her about the possibility of Saudi Arabia becoming a 
signatory nation to the Hague Convention, and we think that 
would be a step in the right direction to prove that the Saudi 
Government wants to keep their commitment to resolving these 
cases.
    The solution is clear. It is imperative for the U.S. 
Congress and our Department of State to work together to bring 
the necessary diplomatic and legal pressure to bear that will 
guarantee the safe return of these U.S. citizens who are being 
held against their will.
    It is also time for the Kingdom of Saudi Arabia to join the 
21st century and finally become a signatory nation to the Hague 
Convention. I believe that if we can take these two important 
next steps, we will be on our way--a long way from the 
conclusion of it, but we will be on our way to resolving many 
of these heartbreaking international child abduction cases.
    As many in the audience know now, this has been a high 
profile issue in the media. Just this past 4th of July weekend, 
both 60 Minutes and the John Walsh Show reran segments 
showcasing the investigation. And I would like to end my 
comments by showing a 2.5-minute excerpt from our previous 
hearings which will set the stage for our hearing today, 
because I think it says in 2.5 minutes what we're up against 
and what these parents have to deal with. With that, if you 
would roll the tape, we would appreciate it.
    [Tape played.]
    Mr. Burton. That gives you the flavor of the hearing today.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T9969.003
    
    [GRAPHIC] [TIFF OMITTED] T9969.004
    
    [GRAPHIC] [TIFF OMITTED] T9969.005
    
    [GRAPHIC] [TIFF OMITTED] T9969.006
    
    Mr. Burton. And before I go to our first witness, Ms. 
Harty, Mrs. Maloney, do you have any comments you would like to 
make?
    Ms. Maloney. Thank you, Mr. Chairman. And I really want to 
join many of my colleagues in congratulating you on your 
leadership on this important issue, on holding numerous 
hearings, on legislation that I have joined you on, and 
particularly going to Saudi Arabia and meeting with these 
families. I would just like to put my remarks in the record, 
but I want to really particularly thank Sarah Saga and her 
mother Debbie Dornier, who will be testifying today. And it is 
very difficult to speak on personal tragedies such as those 
that they have experienced. And I would like permission to 
place in the record an account that was in my home paper 
entitled ``Saudi Hell.'' And she is quoted as saying, 11I can 
describe my life in one word, hell.'' And it goes on with the 
story that she will tell us about today.
    I really feel that we need to take stronger measures. We 
need more than an assurance that they will sign the Hague 
Treaty. Saudi Arabia should be a signatory, but also using the 
tools that we have to deny visas to families that participate 
in this type of cruel treatment and their families.
    I would add, Mr. Chairman, that the new Millennium Account 
which is moving forward, which is a good initiative, it will 
strengthen our foreign aid policies and they have a set of 
criteria, and I feel strongly that this could be part of the 
criteria that we add to the new Millennium Challenge bill, and 
that is how are women treated in these foreign countries before 
they receive the consideration, whether it is aid or visas, 
from the U.S. Government.
    We do have the power to make these changes, and I feel that 
you have worked hard in trying to negotiate agreements, and 
they don't seem to be listening. So I really feel that I would 
like to join you in stiffer legislative laws denying visas, 
denying aid, possibly even sanctions if countries will not 
release American citizens and that we need to really look at 
the whole treatment of women within countries before we provide 
the privileges that we provide through access to our own 
country, through our aid, through our financial and political 
and other programs that we place abroad.
    But I congratulate you for your work on this. I request 
permission to put my full lengthy statement in the record.
    This is wrong. It should be changed. And I look forward to 
this hearing. Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T9969.007

[GRAPHIC] [TIFF OMITTED] T9969.008

[GRAPHIC] [TIFF OMITTED] T9969.009

[GRAPHIC] [TIFF OMITTED] T9969.010

[GRAPHIC] [TIFF OMITTED] T9969.011

[GRAPHIC] [TIFF OMITTED] T9969.012

[GRAPHIC] [TIFF OMITTED] T9969.013

[GRAPHIC] [TIFF OMITTED] T9969.014

    Mr. Burton. Thank you, Mrs. Maloney. And without objection, 
your entire statement will be in the record.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I have but a few remarks. 
I note here that the title of this hearing is focused on Saudi 
Arabia. But just for the record, Saudi Arabia is not the only 
place where this kind of behavior exists affecting American 
families. This is hopefully but the most recent of hearings; 
and those other countries should also be subjected, if you 
will, to the kind of scrutiny we are going to undertake today.
    Mr. Burton. Thank you.
    Ms. Harty, we are now ready to hear your testimony and 
grill you. We are kidding. Just ask you some questions. Would 
you please rise so you can be sworn?
    [Witness sworn.]
    Mr. Burton. Do you have an opening statement?
    Ms. Harty. I do, sir.
    Mr. Burton. Proceed.

    STATEMENT OF MAURA HARTY, ASSISTANT SECRETARY, CONSULAR 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Harty. Thank you, Mr. Chairman, for the opportunity to 
be here today to report on an issue that is one of the most 
important matters before me and that engages me on a very 
personal level. That is the protection of American children 
abducted or wrongfully retained abroad by their noncustodial 
parents, and specifically children abducted to or wrongfully 
retained in Saudi Arabia.
    Before anything else, Mr. Chairman, I want to say that the 
U.S. Congress has been extremely helpful to the Department in 
securing the return of abducted and wrongfully retained 
children. You, Congressman Burton, and many others have backed 
our efforts to recover children. You have raised cases in your 
travels abroad where you have had access to the highest levels 
of foreign leadership. Your willingness to do so demonstrates 
convincingly to foreign governments that the United States is 
totally committed to the return of our most vulnerable 
citizens.
    Since taking office last November, I have made two trips to 
Saudi Arabia, both of them focused on the issue of 
international parental child abduction and the protection of 
American citizens. I will return to Saudi Arabia as often as 
necessary to ensure continued progress. And we have made some 
progress. Since January, seven children abducted to or 
wrongfully retained in Saudi Arabia are back in the United 
States. Three more are expected to return shortly. An American 
mother and her five children, all residents of Saudi Arabia, 
are also expected to return soon.
    In keeping with Saudi Government commitments to us to 
facilitate parental visits to the Kingdom of Saudi Arabia, one 
mother visited her daughter this spring and others plan to do 
so in the coming months. And also in keeping with Saudi 
Government promises that American women will be allowed to 
leave the Kingdom despite objections made by their male 
guardians, one American woman was granted an exit permit and 
departed Saudi Arabia last month; two other American women have 
been granted exit permits and are free to leave Saudi Arabia 
when they choose. A third is scheduled to receive a permit this 
week and to depart shortly for the United States. Two more 
American women have assurances that, should they wish to leave, 
such permits will be granted immediately. We will certainly 
followup on that should they wish to leave.
    We meet on a regular basis with Saudi representatives here 
in Washington and in Riyadh to review cases based on left 
behind parents' requests and to seek systemic solutions. We 
have made clear to the Government of Saudi Arabia that we will 
not be satisfied with anything less than the children's return.
    The Saudi Government has expressed its commitment to work 
with us on this very important issue. We are now working to 
develop common ground for a bilateral arrangement that could 
help parents gain regular access to their children even as they 
pursue the children's return simultaneously. With the Saudi 
Government, we are exploring preventive measures that will help 
avoid this tragedy in the future, including information and 
other outreach efforts. We have posted on our Web site an 
information sheet with the implications of entering into a 
marriage with someone from a country such as Saudi Arabia where 
Islamic Sharia law serves as the basis for family law.
    Ambassador Jordan and our colleagues at Saudi posts have 
worked with dedication and determination to assist American 
parents and their children. I doubt that anyone in this room 
does not know of the pain of one young American mother in Saudi 
Arabia who sought and received refuge in our consulate in 
Jeddah.
    Ms. Saga's story illustrates the painful reality in these 
cases and demonstrates how diligently we work to protect 
Americans abroad. Unfortunately, it also displays the limits of 
our ability to deliver what is always our goal, the ability of 
the U.S. citizen parent to return to the United States with his 
or her children.
    In Ms. Saga's case, we provided her immediate and 
unquestioned protection when she needed it and the basic 
support she and her children needed in a safe place to make the 
difficult decisions that ultimately were hers to make. We will 
remain engaged on Ms. Saga's case and in the cases of all 
American parents who need us in these terribly difficult 
situations.
    We have made progress, sir, but we recognize that there is 
still very much more to be done. I want to assure you today 
that we will never lose sight of the goal nor of the fact that 
so long as one child is wrongfully retained or abducted abroad 
our job is in fact incomplete.
    As Assistant Secretary of State for Consular Affairs, the 
protection of American citizens is my top priority bar none. I 
give special emphasis to the protection of our children and 
particularly those who are the victims of international 
parental child abduction or wrongful retention. I appreciate 
the opportunity, Congressman, to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Harty follows:]

    [GRAPHIC] [TIFF OMITTED] T9969.015
    
    [GRAPHIC] [TIFF OMITTED] T9969.016
    
    [GRAPHIC] [TIFF OMITTED] T9969.017
    
    [GRAPHIC] [TIFF OMITTED] T9969.018
    
    Mr. Burton. Thank you, Madam Secretary. You said that there 
were seven children returned?
    Ms. Harty. Yes, sir.
    Mr. Burton. Do you have the names of those children?
    Ms. Harty. I do, sir. I checked this morning, actually, to 
be sure and safe. I have them here, but we don't have Privacy 
Act waivers for all of them.
    Mr. Burton. So you don't want to read them out here?
    Ms. Harty. I do not want to read them here now, sir, but I 
am happy to give them to you right after this hearing if you 
would like.
    Mr. Burton. Well, let me ask you about some cases that we--
--
    Ms. Harty. And if you would like, sir, I can actually go 
through the circumstances of the cases without the names.
    Mr. Burton. Well, we will get to that in a minute because I 
am sure that the Saudis are trying to put as good a face on 
this as they possibly can. And they may have done some things 
that have been beneficial to some people, but I want to ask 
about some cases that we asked them about when we were over 
there that were not resolved.
    And Pat Roush is in the audience today. She has children. 
When we went over there, her children were sent to London--they 
are adults now--with Saudi representatives as well as their 
Saudi husbands. And after they were talked to by some of the 
media and some people in the Embassy in London, they put on 
their hijabs and sat in the back of the room and asked their 
husbands what they should do. And so to say that they were free 
to express their feelings when they were in London is 
erroneous. I think they were under the control of those people. 
And it was very disconcerting to me, because we went over there 
in part to see those two ladies and they just seemed to go to 
London. They hadn't been out of the country for years. They 
went to London at the same time we went there on a vacation. 
And that is when they went to the Embassy. So those are the 
kind of things that have happened with the Saudis in the past 
and that is why we have questions about their sincerity.
    Let me ask you about Samiah Seramur. She had three 
children, Safiah, Maha, and Faisal. They were abducted by her 
husband. Maha is the only child that was able to escape with 
the assistance of hired men last year, and she spoke to this 
committee in I think our last hearing. What about her other 
kids, the other kids?
    Ms. Harty. As I understand it, sir, the parents are not 
talking to one another right now. We tried when we were last in 
Saudi Arabia to work to have the taking parent, the father, 
reach out in some way. Each parent has a child right now. 
Neither of those children is in a situation that is good for 
them.
    Mr. Burton. Well, let me just interrupt you. Maha was here 
and I talked to her personally. There is no question. She said 
she was living in hell over there, she was mistreated, and she 
wanted to get out of there and she risked her life to do it and 
it was on 60 Minutes. The whole thing was, so I mean it is all 
documented. Her brother and sister, she was afraid to wake them 
up because she was afraid all three of them would get caught 
and she wouldn't be able to get away, and so she left them 
behind. But she said both her brother and sister want to get 
out of there, they want to come to America. They were abducted. 
And what I am asking is, obviously the father is not talking 
because he would not let the mother talk to the children at all 
and he still won't. But to say that it is a 50/50 issue just 
isn't the case.
    Ms. Harty. I'm sorry, sir. If I implied it was a 50/50, it 
is not.
    Mr. Burton. Well, I don't want there to be any 
misunderstanding. The young lady wanted to get away. She is 
here. She is 17 years old, or 16 years old right now, and she 
is tickled to death to be here.
    Ms. Harty. Yes, sir.
    Mr. Burton. And the other two want to get here. What about 
them?
    Ms. Harty. Sir, we are going to continue pressing the Saudi 
Government on that case as in all other cases. We haven't had 
success on that one yet, although what we try to do in so very 
many of these cases is to seek a way for the parents at least 
to communicate so that the children can speak to their parents. 
Communication is never a bad thing. We are not even at that 
point with this case. Yes, we are very frustrated by it, sir, 
and not a day goes by that we don't think about these cases. It 
is not a good situation, it is not ideal, and we will not stop 
trying.
    Mr. Burton. We are going to hear in the next panel, and I 
hope you are still here to hear it, that the young lady who was 
released from the Saudi Government, by the Saudi Government to 
come to the United States said that her father would kill her 
if he saw her. And I talked to the Ambassador today, he was 
kind enough to come by. And I have great respect for the 
Ambassador because I think he has done more than any previous 
Ambassador to help this case. But there is still a lot to be 
done. And he indicated that she went to a meeting before she 
left with her father and her husband. Her father and her 
husband weren't there; I think the Ambassador was misinformed. 
She said she was terrified of her father that he might kill 
her. He has a visa to come to the United States; he works for a 
company that does business in the United States, and she is 
afraid for her life even here today. And her husband, she 
didn't want to talk to him but somebody at the Embassy 
evidently made a call to her and then handed the phone to her 
husband, and she was forced to talk to him. But we will get 
into all that later.
    So I just want to say that there is still some big, big 
problems here.
    Let me ask you about Debra Docekal. She was able to 
establish contact with her children. She learned that both of 
them want to return to the United States, but they are not able 
to do so. Have you talked to anybody with that, in that family?
    Ms. Harty. I'm sorry, sir. The last name again?
    Mr. Burton. Debra Docekal. D-O-C-E-K-A-L.
    Ms. Harty. I'm sorry, sir. I don't have information on that 
case. I will have to get back to you.
    Mr. Burton. OK. We will give you that one. How about 
Michael Rives? His children Lilly and Sami were abducted.
    Ms. Harty. Yes, sir. I know them. I have visited them, 
actually. Well, one thing I would like to say about that case, 
sir, is we are trying very, very hard. Part of the reason for 
the visit to see the children was to ensure that they were at 
least well, healthy, physically being well taken care of. And 
while we were there, we had a very interesting--I had a very 
interesting conversation with the taking parent's brother. His 
visa has been taken away. We took his visa away as an aider and 
abetter, as somebody who was supporting the ability of the 
taking parent to have the children outside of the United 
States. And it was the first time that I had met somebody who 
actually felt the pinch of a new tool that Congress gave us. 
And so it was a good moment and an opportunity to explain that 
visa would never be forthcoming until those children came home. 
We made that--I made that statement very clearly to him at that 
time, to the taking parent as well. I understand that they 
understand that now, and they have a decision to make. But that 
is a pressure point that we used, we used well. We hope it will 
bear fruit.
    Mr. Burton. I think that is a step in the right direction.
    Ms. Harty. Yes, sir.
    Mr. Burton. We are introducing legislation that would 
mandate that people in the extended family of the kidnapped 
children would not be able to come to the United States until 
that was changed, until the children were released.
    Ms. Harty. If I might, sir, say something about that. We 
were going to--in fact, I was going to raise that with you 
today, that as part of our authorization bill for 2004 we 
included a proposed amendment to that section of the 
Immigration and Nationality Act 212(a)(10)(C) and we were 
hoping to get your support on that so that--we would love your 
support on that. It is a very useful tool. The more that we can 
do, the more tools we have, the more pressure points that we 
can find, the better. Actually, in the anteroom just before the 
hearing we began to have that conversation with Ms. Saga and 
Mrs. Dornier, and talk a little bit about that. It is a very, 
very useful thing to have.
    Mr. Burton. But it is mandated if there is a kidnapped 
child, that the visas be revoked or not, they can't get a visa?
    Ms. Harty. Not mandated per se, sir. It gives us the right 
and ability to do it.
    Mr. Burton. Gives the State Department the discretion?
    Ms. Harty. Yeah. But want to use it. I'm here to tell you 
we want to use it. There may be a case----
    Mr. Burton. I believe you will, but your successors might 
not.
    Ms. Harty. The reason I say, there may be a case from time 
to time where parents don't want us to take a particular step 
one way or another because they might still be in conversation; 
that might in fact be a step too far in a case where they may 
reconcile at some point. And so the discretion to use it is 
somewhat useful to us. But there is no way that I want to have 
a tool out there and not use it if it is going to help us get 
the job done.
    Mr. Burton. OK. I have talked long enough here. Let me 
yield to my colleagues. And I have some more questions for you 
on these other families. I have a whole bunch of those that I 
want to go through.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman. And I would like to 
make an opening statement to frame my concerns.
    I want to thank you, Mr. Chairman, not for just calling 
this hearing, but for your consistent dedication to the issue. 
Last time I checked, the year was 2003, and yet in Saudi Arabia 
women are still treated as though they live in the Middle Ages.
    Here in the American Press, we read about the most tragic 
stories such as the fire at the girls school where girls were 
trapped inside by religious police as the building burned 
around them. Or the harrowing escapes of Dria Davis and Maha 
Seramur from Saudi captivity. But the greater tragedy is the 
systematic and profound discrimination and mistreatment women 
suffer each day and every day in Saudi Arabia.
    This is a tragedy and a shame for the Saudis. But the shame 
for the United States is that we continue to foster a close 
relationship with a country that not only abuses its own 
citizens, but abuses American citizens as well. So, Mr. 
Chairman, I want to thank you for your commitment to solving 
this problem. And in the short time I have been here in 
Congress, I have sat through a number of hearings about the 
awful way American citizens have been treated in Saudi Arabia 
and the Saudi Government's complicity in these crimes.
    I have signed on to and written my own letters to the Saudi 
and the American governments regarding this issue. So far, I 
recall none of the responses I have received from either 
government adequate. The Saudi Government in particular likes 
to tell us that these women are there by choice. But as I have 
said before, the reality is that in Saudi Arabia for women 
choice simply does not exist.
    I hope in the hearing with the panelists that we hear from 
in our own government about what steps they plan to take to end 
the kidnapping and mistreatment of Americans in Saudi Arabia 
and to improve the lot of women throughout the Saudi society.
    Our nations, the United States and Saudi Arabia, are bound 
by shared strategic imperatives, and I don't question the value 
of that relationship. But what concerns me are the moral 
imperatives that are pressing on this relationship.
    I would like to repeat a message I have sought to send 
before to the Saudis, apparently in vain: We are not here to 
lecture to Saudi Arabia, but we are here to send a clear 
unmistakable message to the Saudi Government. No matter who is 
in charge in Washington, DC, the American people cannot 
tolerate a relationship that goes against the principles on 
which our Nation is founded. If the Saudi Government does not 
solve its problems with providing basic human rights to half of 
its population, women, our strategic relationship will be in 
serious danger.
    So that is the context in which I will be raising issues 
today. And I would like the panelist to explain to us what we 
can do to assist in solving the problem. Now, there is a bill, 
Mr. Chairman, that you do have. And if it is not complete, I 
hope you can tell us what we need to do to give you the tools 
that you need when you are dealing with this government, and I 
am sure we will be happy to assist you. Thank you so much for 
being here. And thank you, Mr. Chairman.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T9969.019
    
    [GRAPHIC] [TIFF OMITTED] T9969.020
    
    [GRAPHIC] [TIFF OMITTED] T9969.021
    
    [GRAPHIC] [TIFF OMITTED] T9969.022
    
    [GRAPHIC] [TIFF OMITTED] T9969.023
    
    Mr. Burton. Do you have any questions you would like to ask 
at this time, Ms. Watson?
    Ms. Watson. Well, my question was incorporated in my 
statement, my last statement. And that is, what can we do to 
assist you? And is the bill that has been sponsored by the 
Chair complete? If not, just let us know during the hearing 
what we might do.
    Ms. Harty. Well, I thank you very much for that. As I have 
already shamelessly plunged into requests for things that might 
be of assistance to us, the language that would expand section 
212(a)(10)(C) of the Immigration and Nationality Act, would be 
very, very, very useful to us. We would appreciate your support 
on that, and I am actually quite certain that we have it, sir.
    I would like to take a rain check on the second thing that 
we are looking at now. It was in 1988 the International Child 
Abduction Remedies Act was passed [ICARA], which served as the 
implementing legislation for the Hague Convention, the Hague 
Abduction Convention in the United States. We are coming up on 
15 years of the anniversary of ICARA, and so what I am doing in 
the early fall is pulling together a group of interested people 
to discuss ICARA a little bit and see if there are any changes 
in fact to that implementing legislation that might be useful. 
So we would welcome input. And then in fact when we come up 
with suggestions, if there are ways for change, I would like to 
take a rain check on the offer of assistance now until we look 
thoroughly at that and see if there are new things and new ways 
that we can build on that.
    A third thing that I would like to ask is, and that needs 
no encouragement by your presence here today, and that is that 
it is invaluable to us, as I alluded to in my opening 
statement. Your participation in these cases is invaluable to 
us. Your raising them with Ambassadors who you meet in this 
town as well as on your foreign trips gives us an impetus and 
an extra sense of unity as we go overseas and show that it is 
the legislative and the executive branches that are as serious 
as we can be about protecting our most vulnerable citizens. It 
is very helpful as I have traveled to Saudi Arabia twice, 
Syria, Lebanon, Guatemala, Mexico, next week we will go to 
Austria, Sweden, and Germany, all discussing international 
parental child abduction issues. When I can use your names, 
when I can use your energy and your commitment as examples, 
that it is not just Assistant Secretary Harty, it is not even 
merely the State Department; it is the executive branch and it 
is the legislative branch together that has an abiding issue 
and an abiding interest in these issues.
    To the degree that the chairman mentioned a little bit ago 
that we are all appointed, certainly that is true. I am 
appointed. But I am 23 years in the Foreign Service; I am a 
public servant as well. And I think that what we do is a 
privilege and an honor, and we are dedicated to leveraging 
everybody's energies, every person of good will's energy to get 
this job done.
    Mr. Burton. It was not the intention of the Chair to 
denigrate public service.
    Ms. Harty. Oh, no, no. I was just trying to get it out 
there.
    Mr. Burton. What I was trying to explain to Mr. Armitage 
and Mr. Kelly, not necessarily you because you are here, was to 
explain that there has to be oversight.
    Ms. Harty. Yes, sir.
    Mr. Burton. And the elected officials are responsive to our 
constituents. We run every 2 years, or every 6 years in the 
Senate, and so we are supposed to keep track of what is going 
on. We can't many times because there is so much going on.
    Ms. Harty. Though it is helpful for us. Your interest in 
these issues is very helpful to us.
    Mr. Burton. Do you have any more questions?
    Ms. Watson. Let me just probe a bit, and see if the tone of 
your conversations with the Saudi Government at the State 
Department level indicates that there could be a threat to our 
relationships if they don't address these cases. I mean, what 
do you do? What is the tone when you talk to the government?
    Ms. Harty. I think the tone is always cordial, but the tone 
is also very, very frank and businesslike. We have issues. We 
are not going to stop discussing these issues. We have had some 
success in some of--in making some progress, in that some of 
the things that you both have mentioned that are so very 
different from our own society's way of doing business they 
have begun to address. For instance, the right of an adult 
American citizen to leave the country if she wants to leave 
regardless of whether her male sponsor or guardian allows it. 
They have given us that as an assurance, that any American 
adult woman who wants to leave will be given an exit visa even 
without the guardian's permission. That is in direct response 
to the many people who have made these representations to the 
Saudis. And that starts with the President of the United States 
when the Crown Prince visited this country. It goes to all of 
the legislatures who have visited, who have made comments. It's 
Secretary Powell on numerous occasions, it's Assistant 
Secretary Bill Burns from the Middle East Bureau. It is me and 
several trips there. It is working at our embassies. It is 
constant. I do in fact call it a never ending conversation. And 
some people see that as a negative description. I see it as 
positive description of how in fact we are trying to get this 
job done. We are simply not going to stop.
    In addition to getting exit visas for American citizen 
women who want to leave the country, we have also been assured 
that women who might--parents who might want to go back to 
visit a child who is wrongfully retained, even if a sponsor 
will not or does not want them to go back, they are getting 
those permissions and they are going to be allowed to go back 
in. Some have already, and that will continue. Is it good 
enough? No. And it is certainly no substitute for getting a 
child home, and we say that. I say it as I am saying it to you 
now. But I think access in the intervening time as we continue 
to try and get children home is a very important thing for a 
parent to be able to see their children. And so that is----
    Ms. Watson. If you will yield for a second.
    Ms. Harty. Sure. I'm sorry.
    Ms. Watson. On that, apparently American women married to 
Saudis are able to come to the Embassy and they can get a visa, 
exit visa pretty automatically?
    Ms. Harty. It is what the Saudis have told us now, and it 
has been our experience in the last six cases.
    Ms. Watson. OK. But is it a common practice that the 
children from that union are not automatically able to leave 
with their mothers?
    Ms. Harty. You are right, ma'am. That is exactly the way it 
is, and that is where our efforts are directed.
    Ms. Watson. Well, tell me, how does the Saudi Government 
see the children of that union?
    Ms. Harty. The Saudi Government sees the children of a 
union between a Saudi citizen and a U.S. citizen as a Saudi 
citizen.
    Ms. Watson. Even if the children were born in the States 
while he was in school and then taken back?
    Ms. Harty. Yes, ma'am.
    Ms. Watson. And the children are born in the United States 
and they are listed as American citizens, the Saudis interpret, 
because the father is a Saudi citizen, just going to school, 
that these children be Saudi citizens too?
    Ms. Harty. Ma'am, in general, that is true. There may be a 
case that I can't think of at the moment where that is not the 
case. But in general, that is true. A Saudi father has Saudi 
children.
    Ms. Watson. What kind of legal standing do we have, does 
the mother have, when living in Saudi Arabia, married in the 
United States to a Saudi citizen, had the children there, then 
went home?
    Ms. Harty. Back to Saudi Arabia?
    Ms. Watson. Back to Saudi Arabia, with the husband, went to 
his home. What legal standing does she have in the Saudi 
courts, in the American courts, and in the international 
courts?
    Ms. Harty. Well, the American courts, there is very little 
attention paid to American court orders outside of the United 
States, and in Saudi Arabia the Saudi courts would prevail.
    Something that you asked in your opening statement that I 
should have also spoken to is what else we can do, what else we 
can try and do to let people--to stop these things from 
happening. We have got a lot of information on our Internet 
now. Our Web site gets 129 million hits a year. When you apply 
for a passport to travel outside the United States, which she 
would have to do even if she were going to Saudi Arabia, right 
on page 2 it gives you the Web site, it gives you an emergency 
phone number to call. If you were ever to use this, you would 
see a consular information sheet on Saudi Arabia that talks 
about family matters. It says a married woman residing with her 
Saudi husband should be aware that she must have her husband's 
permission to depart or have their children depart from Saudi 
Arabia.
    It goes on at some length. We have other pieces: Islamic 
family law, Saudi Arabia and international parental child 
abduction, a travel warning on Saudi Arabia, additional 
information on our Office for Children's Issues.
    Ms. Watson. Let me ask you this. Those papers are given to 
the American female.
    Ms. Harty. They're available on the Web site, ma'am. As a 
matter of fact, we've got it on the Web site. We've got it in 
the passport so you know where the Web site is.
    Ms. Watson. I know. We will find that, you know, no one 
reads----
    Ms. Harty. But I have a new idea.
    Ms. Watson. Well, let me just say this, and then you can 
respond.
    Ms. Harty. Sure.
    Ms. Watson. No one reads the information on the airline 
ticket.
    Ms. Harty. I know. Unless you're really bored standing at 
the counter, you don't read page 2 of your passport.
    Ms. Watson. And I don't think they are reading the 
information they pull from the Web site. So maybe your idea is 
the same as mine. Would it be practical and effective to, when 
that person is getting ready to go to Saudi Arabia, that 
whoever is the consulate general or whoever is dealing with 
them must read that paragraph to them, can be sure they 
understand or have them sign off?
    Ms. Harty. Actually, that's a great idea. Although we've 
talked to the Saudis about it. I mentioned it in my opening 
remarks. And we are talking about how we can share additional 
information. Because, of course, a woman--an American citizen 
woman going to Saudi Arabia wouldn't necessarily see an 
American official except perhaps to get a passport; and, in 
that case, she doesn't have to tell us why she's getting a 
passport, just that she needs one. So the issue is whether or 
not we can come to an arrangement with the Government of Saudi 
Arabia so that when they issue visas perhaps that is a 
recommendation we can make, and I'll certainly pursue that.
    My idea was less creative, but I'm going to do it anyway. 
And that is I sell about 7.2 million passports a year, and 
maybe you won't read page 2 of the passport, but you'll open 
the envelope when you get something from the passport agency 
because you bought that. You're looking for that passport. So 
we're going to put a little flyer on top of the passport 
itself. Can't get you to open a book and read it. Maybe you'll 
read the little flyer on top that calls your attention to the 
Web site: travel.state.gov. We've got 129 million hits last 
year. If I can get people to read that Web site, that will be a 
very useful thing; and we will be incorporating that into the 
mailings that we do for passports so that people have more of 
an ability to know that there's more information out there for 
them.
    Ms. Watson. I am a strong believer in informed consent.
    Ms. Harty. Yes, ma'am.
    Ms. Watson. And some way we have to bring it to the 
attention of the illiterate. You know, people just don't read. 
I think that maybe we ought to put a step in between applying 
and getting your passport, and that is that you need to sign 
off here that you have read. And, that way, at least they sign 
it. They've read the above.
    You know, often we sign and we haven't read the above, but 
it's on them. I just feel we need to give more information in 
the beginning, in the initial step so people can think about 
the choices they have and what they're getting ready to do.
    Ms. Harty. An informed consumer really is all of our best--
the best protection for anybody.
    Ms. Watson. Exactly.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Ms. Watson.
    I want to make sure before you leave you get a chance to 
hear Sarah's comments.
    Ms. Harty. Yes, sir.
    Mr. Burton. I have some more questions which I'll probably 
submit to you in writing, but there's a couple of other things 
I'd like to ask you before we get to Sarah. Regarding Sarah 
Saga's two children, are they considered American citizens? 
And, if not, why not?
    Ms. Harty. Sir, they're not American citizens right now 
because Mrs. Saga doesn't fulfill the transmission requirements 
for citizenship.
    Mr. Burton. What are those requirements?
    Ms. Harty. That she--an adult who wants to pass on 
citizenship needs to have spent 5 years in the United States, 2 
of those years after the age of 14.
    Mr. Burton. Do you think that should be changed?
    Ms. Harty. Well, sir, in--we talked about this with 
Congress several years ago and so, in 2002, we passed new 
legislation, the Child Citizenship Act--sorry--of 2000; and 
what that does is remedy the situation to a degree in that 
those children--the fact that they are not right now holders of 
blue passports would have been irrelevant to our reaction had 
we been able to get exit visas, get on the plane.
    We will solve this the minute we get home, because the 
Child Citizenship Act of 2000 gives us the ability to very, 
very quickly naturalize them and make them U.S. citizens. We 
worked hand in glove with the Congress on that. Happily look at 
that again, but it's not an impediment to their coming to 
America at all.
    Mr. Burton. Well, that's comforting. It would be nice if we 
could say that if a child is kidnapped and they have children 
later that the citizenship rights would apply just as though 
they were living in the United States.
    Ms. Harty. The citizenship in these cases accrues through 
the petition process and the fact that their grandparents--that 
the parents of the--yeah, the grandparents can, in fact, 
petition for them.
    Mr. Burton. I just have a couple more things I want to ask 
you real quickly.
    Can you put up on the screen the first letter from Margaret 
Scobey? I don't think she can see that.
    Ms. Harty. Oh, I can't see that, sir.
    Mr. Burton. OK. Can somebody get her a copy of that so she 
can see that real quick?
    Ms. Harty. My eyes just aren't that good, sir.
    Mr. Burton. In fact, didn't we have an excerpt? That 
excerpt was blown up. OK. Give her a copy of that.
    Ms. Harty. Thank you.
    Mr. Burton. Here's what that says. It says, we have 
provided Sarah's passport to Saudi foreign affairs authorities 
in Jeddah and asked for an exit permit and all exit formalities 
to be arranged that will facilitate her departure from Saudi 
Arabia. She also asks to bring her two children, Hanin and 
Ibrahim to the United States to visit their mother--her mother, 
who's never seen her grandchildren.
    And then later, on June 19th, Sarah was in her room or 
bedroom or whatever you want to call it; and she received 
notification that there were three members of the Saudi 
Government that were coming to see her. She had about 10 
minutes notice. They came in and were with her for about 2 
hours, along with three women from the consulate.
    She ended up signing a document which says, I declare that 
I am leaving Saudi Arabia alone without my Saudi national 
children named in the document. In the event that I would like 
to see my children, this matter would be left up to their 
father's discretion, and this would take place in Saudi Arabia. 
I sign this declaration out of my own free will, without any 
coercion or any kind of pressure from either--any source or 
person.
    So she was actually giving her children away because, as 
you know, the father doesn't have to let her see the children 
according to that. So she knew that she made a horrible error 
by signing that. So, the next day, she signed a document that 
said, when I signed the declaration on June 19 it was not my 
intention to relinquish any rights to which I was entitled. I 
simply intended to reflect my understanding of what I had been 
told by the Government of Saudi Arabia. I did not intend 
permanently to waive my right at some later time to demand 
custody of my children, nor did I intend to agree not to seek 
the assistance of the Government of Saudia Arabia in ensuring 
that I have access to my children.
    What I can't understand--and maybe you've talked to some of 
these people, and I did talk to the Ambassador a little bit 
about this. I'm not sure he had the whole story, because some 
of the things he told us was in error, and I don't think it was 
intentional. I just think he didn't have the right information.
    Why would those three women in the consulate, standing 
there, relatively quiet, not tell her what she was giving away? 
Because this young lady was under extreme pressure. She was 
scared to death of the Saudi Government. She thought her father 
would kill her if she left that place. She didn't feel she 
could leave even if her children didn't go to America. She was 
caught. Why would they not say this is something you ought to 
think about for 24 hours before you sign it?
    Ms. Harty. To start with the visit to the room, Mr. 
Chairman, I understood that the reason for that was that they 
thought it would be more comfortable than suggesting that she 
leave the compound to visit them, that the Saudis originally 
had invited her to their office and we said no.
    Mr. Burton. I know. But she was given about 10 minutes.
    Ms. Harty. For which I regret that.
    Mr. Burton. And the second thing is nobody from our 
consulate went in and said, now, look, they want to talk to you 
about this. Here's the pros and cons of it. They just all came 
in, six of them together.
    Ms. Harty. Yes, it was the regional security officer, the 
consular officer and the consulate and the consul general.
    Sir, perhaps there is a miscommunication here because the 
consul general believes that she recommended that the document 
not be signed, that it wasn't.
    Mr. Burton. Well, I talked to Sarah before the hearing, and 
we'll let her speak for herself, but that was not the 
impression that I had.
    Ms. Harty. I'm uncomfortable putting--you know, since I 
wasn't in the room at the time, but the consul general 
certainly believes that her recommendation was the opposite, 
that it not be signed at that moment. But I have to say that 
what we also said at the time was there is no way that any such 
a document signed in any such situation would ever have been 
binding.
    Mr. Burton. Well, but the point is, it may not be binding 
as we view it. But the Saudi officials that were there took 
that document with them and they could use that any way they 
want for publicity purposes or anything, to make it look like 
this gal gave up her kids of her own volition and she just 
wanted to get the heck out of here and go to the United States 
and she didn't care about her kids.
    So what I can't understand and I--maybe you'll ask them 
after you leave to explain why they didn't take some time. In 
the future, if other women come there, it seems to me they 
ought to sit down with them and say, here are your rights and 
you ought to think about this and weigh the pros and cons 
before you sign any document.
    Because people like that are under extreme pressure. She 
thought she'd be killed if she left.
    And then, when I talked to the Ambassador, he said that she 
did leave--before she caught her plane and she met with family 
members, including her father and her husband. She said that is 
not the case. The father wasn't there, and the husband wasn't 
there. And she said if they were there she wouldn't have gone. 
And so that needs to be made clear.
    Also, there was a question about they said what kind of a 
plan do you have? And she--you should go back to your family 
and stay here until you have some kind of a plan to exercise to 
get out of here. She indicated that was said to her as well. 
Are you familiar with that?
    Ms. Harty. No, sir, I'm not.
    Mr. Burton. Well, maybe I should get her up here so you can 
hear her whole story; and then you can respond to us later. Let 
me just ask a couple more questions, and then we'll let you 
listen to what she has to say.
    Michael Rives, we talked about him just a minute ago--and 
I'll rush through these. His wife was not even a Saudi, but her 
father was connected to the Saudi Government so he was able to 
go down there and use the Saudi Government as a shield to keep 
those kids over there. So there ought to be something we can do 
to get those kids back.
    Ms. Harty. Oh, sir, I regret that we haven't had success 
yet. I have been very aggressive on that case.
    Mr. Burton. Well, that's one that ought to be--well, they 
ought to all be pursued.
    Maureen Dabbagh, she married a Syrian national who abducted 
their daughter Nadia to Syria; and currently she's suspected of 
being held against her will in Saudi Arabia. She received 
custody of her children from both United States and Syrian 
courts.
    Ms. Harty. I do know a little bit more about that case. 
What I don't know, regretably, is whether or not the Privacy 
Act waiver has been signed for me to tell you a little bit more 
about that.
    Mr. Burton. Well, this won't be the end of all these; and 
if you could get us in writing----
    Ms. Harty. I'd be happy to, sir. I don't want to betray 
somebody's--there's a personal situation in each of these 
cases, and I don't want to betray that. I also don't want to 
not be cooperative with you.
    Mr. Burton. Well, we'll look at it privately; and we'll 
discuss that case.
    Joanna Stephenson Tonetti. She married a Saudi national, 
had three children: Rosemary, Sarah and Abdul Aziz.
    Ms. Harty. Yes, I met with those children, too. They're 
gorgeous. They're lovely children. We are also trying very hard 
in that one. Several other senators are involved in that case. 
They have been for a long time. Both parents in communication 
trying to work through----
    Mr. Burton. Well, now don't make it look too good. Because 
he came to the United States. He is from Terre Haute, IN. He 
was ordered by the court not to take the children out of the 
country.
    Ms. Harty. No, I don't mean to make it look----
    Mr. Burton. This is important. He was ordered not to take 
the children out of the country, and their passports were held. 
The court contacted the Saudi Embassy here in Washington, said 
the children are not to be taken out of the country. The Saudi 
Embassy issued new passports to the children, they were 
kidnapped and taken to Saudi Arabia, and she hasn't seen them 
since. So he's not cooperating. He kidnapped the kids against a 
court order in the United States.
    Ms. Harty. No, no. I don't think I said they were 
cooperating. I said they are talking to each other, which is a 
good thing because there are some things that he wants that may 
be able--that may break a logjam here. We have some hope in 
that case. We really genuinely have some hope.
    Mr. Burton. That he will give the kids back to the United 
States.
    Ms. Harty. Yes, sir.
    Mr. Burton. Well, I want to follow that case very closely.
    Margaret McClain. She had one daughter, Heidi, who was 
abducted in 1997. Recently, she's been able to visit her child 
in Saudi Arabia, but she had custody. Are you familiar with 
that case?
    Ms. Harty. I am in fact. I met with Mr. Al-Omary as part of 
the effort to get him to agree to allow her access for a visit. 
I met with the Governor of the eastern province as well to make 
sure that this got done. That visit took place not so very long 
ago. It's not a replacement for--access is not a replacement 
for getting the child home. But we at least were able to get 
Mrs. McClain a chance to see her daughter, and we are 
continuing to push and push and push on that case.
    Mr. Burton. Well, that's another reason why we ought to use 
pressure like withholding visas for the extended families, 
because that was a kidnapping case. It was violation of U.S. 
law. If he comes backs here, he ought to be arrested and 
prosecuted. So to say that she's been allowed to see her 
child--I mean, my gosh, that child's thousands of miles away. 
It's not like you can go over on a Sunday afternoon.
    Ms. Harty. Yes. It is not a replacement for getting a child 
home, but access is so important.
    Mr. Burton. OK. And, finally, Pat Roush, who's been with 
us. She talked to us today, and she said, you know, she watched 
this young lady come back to the States and her mother visit 
her, meet her at the airport and hug each other and things. She 
said she's been waiting on that for 20 years. Her children were 
taken away from her.
    I hope that we don't forgot those cases where the children 
are now adults. They ought to have the opportunity to go to a 
neutral country or to the United States, meet with the mother 
and without any pressure from anybody else make a decision on 
whether they want to stay in Saudi Arabia or stay in the United 
States.
    Ms. Roush has told us in witnessing before the committee 
that all she wants is for her two daughters to come over 
without any strings attached to them. And if they decide they 
want to go back after they come over, fine, but if they decide 
they want to stay in America--they're American citizens. They 
ought to have the right to stay.
    I believe personally that they are under coercion and that 
they were coerced when they were in London when they took them 
away from Saudi Arabia while I was there with the delegation, 
and I think it was purposeful to make it look like they were 
trying when they weren't. So that's another case I hope you'll 
look at, even though that's an older one.
    Ms. Harty. Oh, sir, there are few things I'd like more than 
to see that happen, so that those conversations could be held. 
Rest assured that I have raised it on both trips. I will never 
go to Saudi Arabia and not raise it.
    Mr. Burton. OK, well, the seven cases that you said where 
children have been released I'll talk to you later and you can 
give us copies of those, because I am not aware of those, and 
they are not the ones that we were asking about when I was in 
Saudi Arabia.
    Ms. Harty. No, but three of them I think we--I may have 
called you on, sir, or perhaps a member of your staff, the 
first three. But there's several--with lightning rapidity, 
several others have occurred.
    Mr. Burton. Well, we'll talk about that. And I hope you'll 
listen to what Sarah has to say, because it was indicated by 
Prince Saud to me that any woman who wants to leave can leave. 
Once you hear the whole story of this lady that was at the 
Embassy with Sarah and how there was pressure put on them and 
their families to keep them from leaving anyhow I think that'll 
give you a different picture. Because Prince Saud may say that 
they're trying, but there were government officials that said, 
you know, cut them off at the airport. Don't give them 
anything. Leave them high and dry. And there was pressure being 
brought to bear to force them to change their minds.
    Ms. Harty. You're talking about the other family.
    Mr. Burton. I'm talking about the other family as well as 
Sarah, and we'll let her testify about that.
    Ms. Harty. We have been in touch with her since she went 
back. So far, we have assured her that we will continue to be 
in contact with her, and she has been able to be in contact 
with us.
    Mr. Burton. Well, we'll let Sarah tell you what this lady 
said to her when they were together in the Embassy, because I 
don't think that whole story has come out.
    With that, we appreciate you being here; and we will be 
sending a tape and--with questions from the hearing and with 
your permission we'd like to have you respond.
    Ms. Harty. Absolutely. Thank you, sir, very much.
    Mr. Burton. Thank you, Ms. Harty; and please take our 
message back to the Secretary, Mr. Kelly, will you?
    Ms. Harty. Rest assured, sir.
    Mr. Burton. Thanks a lot. Appreciate that.
    We'd like Sarah and her mother to come forward now. Where 
are they? Oh, there they are. Right there.
    Sarah, would you and your mother come up to the table?
    Oh, and Ms. Radwan from the Saudi Embassy, are you here? Is 
Ms. Radwan from the Saudi Embassy here? Ms. Radwan from the 
Saudi Embassy, are you here? Is anybody from the Saudi Embassy 
here?
    Well, they said they were going to be here, and they sent 
us a statement. I guess they don't want to be questioned. 
Doesn't surprise me much.
    [The prepared statement of Ms. Radwan follows:]

    [GRAPHIC] [TIFF OMITTED] T9969.024
    
    [GRAPHIC] [TIFF OMITTED] T9969.025
    
    [GRAPHIC] [TIFF OMITTED] T9969.026
    
    [GRAPHIC] [TIFF OMITTED] T9969.027
    
    Mr. Burton. Ms. Saga and Ms. Dornier, would you please 
stand to be sworn.
    [Witnesses sworn.]
    Mr. Burton. Ms. Saga, you and I talked earlier, and you had 
a prepared statement, but you said you'd rather just answer 
questions. So what I'd like to do is I would like for you to 
start at the beginning and tell us when you decided to leave 
and why you decided to leave. Tell us about your father and 
your husband, the kind of problems you had, physical abuse and 
all that. And then tell us what happened when you got to the 
Embassy.
    Just go through your whole story. And you don't have to 
read that. You can just tell it in your own words. We'll put 
your official statement in the record OK?
    [The prepared statement of Ms. Saga follows:]

    [GRAPHIC] [TIFF OMITTED] T9969.028
    
    [GRAPHIC] [TIFF OMITTED] T9969.029
    
    [GRAPHIC] [TIFF OMITTED] T9969.030
    
    [GRAPHIC] [TIFF OMITTED] T9969.031
    
    [GRAPHIC] [TIFF OMITTED] T9969.032
    
    [GRAPHIC] [TIFF OMITTED] T9969.033
    
    [GRAPHIC] [TIFF OMITTED] T9969.034
    
    [GRAPHIC] [TIFF OMITTED] T9969.035
    
  STATEMENT OF SARAH SAGA, AMERICAN CITIZEN ABDUCTED TO SAUDI 
                         ARABIA IN 1986

    Ms. Saga. Well, first----
    Mr. Burton. Pull the mic real close. You have a very soft 
voice. We want to make sure we hear everything you have to say.
    Ms. Saga. First, I want to say thank you to you and to all 
the people who helped----
    Mr. Burton. OK. Pull the mic a little closer because your 
voice is very soft. We want to make sure we hear everything.
    Ms. Saga. I wanted to say thank you, and I'm so thankful to 
be here today. I am so proud that I am an American citizen and 
that I had the right to come here and say my words.
    What I've been through was hard. As you know, I was taken 
by my father from here when I was 5 years old, and I was cut 
away from my mom. I wasn't even permitted to hold a picture of 
her. And no calls. If they could even pull my memories away, 
they would have done that. Only my family members--some of my 
family members, who they loved my mom very much, would talk 
about her. But as long as I lived with my father I couldn't 
communicate with my mom or even try to communicate with her.
    My father married twice, and he used all kinds of abuse. He 
beat me. I was locked in my room for 2 years and not even being 
allowed to open the curtains.
    Mr. Burton. How many years?
    Ms. Saga. Two years.
    Mr. Burton. Two years?
    Ms. Saga. And my stepmothers also was helping him in that. 
I was starved. I was held--my father grabbed my head and just 
slammed my head in the wall because I was talking to the phone 
to someone I wasn't supposed to. My stepmother's family, her 
brothers and sister used to put foul-smelling things in my bed, 
and they would pour some medicines upon my study books, and I 
was supposed to clean up what they did to me.
    I wasn't allowed to even wash my clothes in the washing 
machine. I don't know why. Maybe--I don't know why.
    One day I took a picture from my grandma of my mom, and my 
stepmother discovered that I was holding the picture, so she 
wouldn't talk to me, she wouldn't let me go to the kitchen or 
eat or get out of my room. And at the end I had to kneel down 
and kiss her feet to just let me eat. So I was dreaming of the 
day, which I can come here to my loving family, to my mom, just 
to live a normal life as any woman, any human being.
    My father was so ruthless and cruel to me. He used to beat 
me for just foolish things.
    One day he--I had low marks in school, and he beat me with 
a stick. And I went to school with my hands bruised with all 
colors, blue and purple, and I couldn't even close my hands. 
And I was holding my hands in the desk, and the teacher thought 
that I was playing with something or writing something down, 
and she said, take your hands out of the desks, and I said 
please don't make me do this, I can't. And so my friend beside 
me told her that she has been beaten by her father. And so I 
took my hands out, and she was shocked. She almost screamed 
when she saw the sight.
    During those years I've reached a stage or I've reached the 
point that I would want to get rid of my life because of all of 
the suffer I was going through and all the bad things I was 
going through. I had no friend, no one, no family.
    Also, my father had some problems with my family, my 
grandparents and my aunts and my uncles, so he wouldn't go even 
there. So I had nobody to talk to, to tell what I was going 
through.
    Mr. Burton. Why don't you tell us, Sarah, about how you met 
your husband and how you got married and then you had children 
and then how you decided to leave.
    Ms. Saga. OK. When I was 18 years old, my husband and 
another man proposed for my hand just like the original way of 
marriage over there. His sister saw me in the school, and then 
she told him about me, so he proposed. By that time, I was 
locked in my room and--for 2 years, and in some sense I was so 
happy to get out of what I was in from that home and to try to 
begin a new life, which I was hoping to be nice. But during the 
engagement days I couldn't make myself like that man or I 
didn't like him. And I tried to talk to my father. Please, I 
don't want this man. Don't make me marry him. So he wouldn't 
listen to me.
    And I tried with all of my family members. But they had no 
power because the word is for my father to say yes or no.
    On the night of my wedding I tried my best to talk to my 
family, to do something to prevent this marriage, but I 
couldn't. So in the morning, I told him that I don't want him, 
and he called my father and his father, and they both tried to 
talk me into completing this thing, and they didn't want me to 
get a divorce. And my father said you're young and you don't 
know life. You'll get used to him. And so I couldn't prevent 
that from happening.
    After a year of my marriage, I had my son; and after 
another year I had my daughter. And when I had my daughter, it 
was like she did awaken some things in me that was there but I 
couldn't feel it because at that time I was a mother.
    And for my luck that was the time that the Internet entered 
Saudi Arabia, and so I tried to talk to my uncle, what can I do 
to search for my mom? And so I went to Yahoo Web site, and I 
wrote down my mom's name. And then I couldn't get her number, 
but then I wrote my family, my mom's family's name.
    And I got my grandma's number. And I knew that she lived in 
her own house, she's not moving, and so I called her. And the 
answering machine answered, and so I left a message saying that 
my name is Sarah, I'm looking for my mom and I hope that I can 
still call you grandma. And so I called the next day and she 
was my grandma, and I was so happy. We were all happy and 
crying. And then we exchanged numbers and e-mails and we kept 
talking to each other for 3 years.
    At that time I was trying--since I talked to my mom, I was 
trying to get my husband to take me to anywhere so I can see my 
mom. First I pleaded with him to take me to America so I can 
see mom. But after a short while he was saying no all the time. 
He wouldn't take me anywhere. And he was referring that to 
money problems. He didn't have enough money to take me. And so 
one time my mom offered that she will pay everything for us to 
go to France so we can see each other. But he also refused. And 
I think that my father had some influence on him. He was 
talking to him and because he was acting like as if he was 
thinking the same way my father does.
    And so during those 3 years I tried every way possible for 
me to convince him to take me to my mom. And 1 day we were 
arguing about that, and he said, why do you want to see your 
mom? I don't understand this relationship between you. And I 
said, I haven't seen her in 18 years and you're asking me why I 
want to see my mom? And so I knew that from the beginning he 
wasn't going to help.
    So then I decided that I have to do something because he 
was also beginning to be very verbally abusive with me and 
physically abusive with the children, and I knew that the only 
way I can be safe and free is to come with my children here to 
America. So I began planning with my mom for a safe way to get 
out of Saudi Arabia. It was very dangerous, and I was so 
afraid, and I had to be secretive. Nobody knows. And I was 
losing my weight and my hair and I was suffering skin problems 
and I tried to be as normal as I can.
    And then when the chance came for me to go to my 
grandparents home I went there. And I pleaded with him to leave 
me for one night because my grandpa was sick. And so I stayed 
there and at 5 a.m. I woke up, woke up the children, I took a 
taxi and we went to the consulate. When we arrived there I went 
through the checking in and everything, and then I stayed in 
the lobby for a long time, probably 2 or 3 hours until somebody 
came to talk to me. And they were asking me, what's your case? 
What do you want? And then Lauren came, and she also asked me, 
why are you here? And then we went to the consulate general's 
office, and they tried talking me into going back to my family.
    Mr. Burton. What did they say to you? I think this is very 
important, because we want the State Department and everybody 
to understand what a woman goes through when that happens.
    Ms. Saga. At the beginning, they told me that if you can go 
to your family, go now, and we will help you, we will stay in 
touch with you. And I told them that I can't go back because if 
my father ever knew what I've done, he would kill me 
mercilessly. And they told me that we haven't known anything 
about you before, so we don't have a file about you. If you had 
called us before, we could have helped.
    And, of course, it was too late for me to go back. I 
couldn't go back. But I was in so much fear and pain. And I 
called my mom, and I said, what can I do? I was afraid and I 
was so desperate to get out of that country. So I refused to 
go.
    And they called the woman who was in the consulate over 
there to--as if to convince me to--you know, look, this is a 
woman who has been here 2 weeks, and she couldn't do anything, 
so you'd better go back because we can't do anything for you 
and your children.
    Mr. Burton. There was another woman there that had been 
there 2 weeks and they said they couldn't do anything for you 
and your children and for you to go back.
    Ms. Saga. Yeah. Yeah. They were--she told me, the other 
woman, that the people at the consulate tried to find someone 
who was helping that woman, and they couldn't. And so that 
woman was convinced that nobody was helping her and she was 
helpless in the consulate. She has to--in the end, she was so 
afraid. She had to go back to her husband. And with her 
children. And although their children, I mean, her children 
were with American passports, she was trying to tell me that, 
look, my children have passports and they couldn't go, so my 
children are--they don't have passports, so she was trying to 
tell me----
    Mr. Burton. OK. So--I'm sorry to interrupt you. But this 
woman had passports for her children?
    Ms. Saga. Yeah.
    Mr. Burton. And did she have passports for herself, too.
    Ms. Saga. Yeah.
    Mr. Burton. So she had passports to leave the country and 
she's an American citizen and the consulate wouldn't do 
anything.
    Ms. Saga. No. No.
    Mr. Burton. And so she went back.
    Ms. Saga. She went back.
    Mr. Burton. Do you know what happened to her when she went 
back?
    Ms. Saga. I don't know what happened after she went there, 
but the reason she went back is because her husband has a--he 
had a paper saying that--from a very high position man that if 
she didn't hand him back the children he will throw her in 
jail, and she would never see the children again.
    Mr. Burton. So she had to go back because of that threat?
    Ms. Saga. Yeah. Yeah.
    Mr. Burton. OK. Well, go on and tell us what happened to 
you then.
    Ms. Saga. And so I stayed at the consulate, and I had to--
at the first day I went there, because we were sharing the room 
with this woman, she had three children and I have two children 
and the room was--there was two single beds in the room. So 
they told me that I have to have some money because I have to 
buy sleeping bags and I have to buy food for myself and my 
kids; and, of course, I didn't have money because I ran away. I 
didn't have anything with me. And so I called my mom, and she 
transferred some money for me there.
    Mr. Burton. Why don't you pick up when they started talking 
to you about what you should do when you said you wanted to 
leave the country and just tell us what happened when the 
people came to visit you. Just go into the details of that.
    Ms. Saga. From the beginning they were convincing me that 
it's OK for you to go, but your children can never go unless 
their father gives the permission for them to travel with me. I 
actually went there with the belief that somebody would help 
me--I mean, from the government--to take my children with me 
safely to America. And when I saw that the consulate people 
were not helping, they just kept telling me that they can't do 
anything for the children. They can help me go out, but they 
can't help the children. I mean, help me take the children.
    And Margaret Scobey went to Prince Saud Al Faisal, and he 
said also that I can go, but the children cannot go unless 
their father give them permission. So we were having meetings. 
Every day from 7 a.m. I would wake up, and I would go to the 
meetings with my children. And every day they would keep saying 
that what do you want to do? What's your plan? And they would 
keep telling me again and again that I can't take the children.
    And so 1 day they wanted me to go to the Saudi ministry--
Ministry of Foreign Affairs and in the last minute I had 
communication with someone in the family who told me that the 
ministry, the Saudi ministry was planning to let my husband 
come to their office over there in a weekend day where there 
was nobody but the people who were going to talk to me. And in 
the last minute, I refused to go because I was so afraid that 
my husband would--if I was out of the consulate, he could do 
anything. He could take the children, he could let the 
religious police catch me or take me to jail. So I didn't go.
    And so the next morning--or the same day, the consulate 
general called me before those Saudi officials came, 10 minutes 
before they came and from my----
    Mr. Burton. So you had no notification that the Saudis were 
coming to visit you until just 10 minutes before.
    Ms. Saga. No. I had no idea that they were coming to the 
consulate and into my room. So, from my surprise, they knocked 
on the door and I saw three men with three women from the 
consulate knocking at my door. And they walked inside and they 
started--I mean, the Saudi officials talking me into the same 
thing. We've talked to your husband, and you can't take the 
children with you.
    And I'm sorry. I forget to say that day, before the men 
came, I had a phone call and the operator there said that the 
consulate general wants to talk to you. And so I said OK. And 
when I got the line, it was my husband talking from the 
consulate general's cell phone. And so I was trying to avoid 
talking to him.
    Mr. Burton. You didn't want to talk to your husband, but 
the consulate general----
    Ms. Saga. No, I didn't want to talk to anybody.
    Mr. Burton [continuing]. Called you and handed the phone to 
him?
    Ms. Saga. Yes.
    Mr. Burton. OK.
    Ms. Saga. And so I was forced to talk to him. And he told 
me that we can go to some kind of agreement about the children, 
but--and he told me later that the Saudi officials told him 
that if your wife ever took your children out of Saudi Arabia 
you will never see them again. And so they were making sure 
that he knows that there is a possibility of him not seeing the 
children, which I wasn't going to do that. I was going to find 
something, a visitation or something between us to see the 
children.
    Other thing is that he told me that the Saudi officials 
told him--one of the Saudi men over at the ministry told him 
that, take your--just talk sweetly to your wife, give her 
whatever she wants, take the children, and then just leave her 
to deal with her own problems at the airport. And so I was so 
angry to know that, you know, they would go to such extreme to 
not let me take the children with me.
    So when the Saudi men came they started talking about, you 
know, that we can't let the children go, and there is no chance 
for them to go unless their father said yes. And so, when I--
and they showed me a paper, which I thought that the consulate 
people, the consulate officials who--they were the one who 
wrote the paper.
    Mr. Burton. The document they put in front of you, you 
thought was written by the consulate people.
    Ms. Saga. Yes.
    Mr. Burton. Did they say anything to you about the paper? 
Is the paper where--Ms. Saga, this is the paper where you 
agreed to give up your children and not to see them unless the 
father said it was all right?
    Ms. Saga. Yes, the paper said that I am giving--by signing 
that paper I am giving up the custody of my children in Saudi 
Arabia. And when I signed the paper, I immediately knew that I 
shouldn't do that.
    Mr. Burton. Did you get any advice from the consulate 
people? Did they say anything at all to you like you ought to 
think about this or----
    Ms. Saga. No. They said this is your decision, and we can't 
force you into doing anything. And that's it.
    Mr. Burton. But you didn't have much time to think about 
it.
    Ms. Saga. No. And so I was so afraid, and I called my 
mother and told her what happened. And then the second day--I 
mean, the next day they wrote another document which says that 
by signing that paper I'm not giving up the custody of my 
children or--and so the whole issue was about the custody. 
There was no help for me to take the children out. They didn't 
even ask about my children. They said in the paper that I was 
asking for the children, yes. But they weren't asking for their 
exit.
    After that, I--my husband started calling me at the 
consulate, and he said, look I am not going to--I will do 
anything to let you protect the children. I'm not going to let 
you--I'm not going to repeat what your father did to you.
    And so I told him that I can't trust his word. So I asked 
him to write a paper in front of the Saudi ministry and the 
American consulate that he would never do such a thing, I mean, 
cut my children of me and he would help to let me visit them, 
see them anywhere outside of the United States and outside of 
Saudi Arabia. So he said OK, and he signed the papers.
    But I've been here for 2 weeks, and I can't talk to my 
children. The only thing he is doing is he's letting me listen 
to their voices on the phone. But I can't talk to them because 
he can't handle their crying. And I tried to call his sister, 
because he's leaving the kids with his sister. I tried to call 
her, and I asked her to let me talk to the children, but she 
said I'm not going to let you talk to them, and--because I have 
enough children and I'm not going to--I'm not going to let you 
talk to them until they are with their father when he marries 
again.
    And so that paper, in my thinking, was useless because he 
is already cutting my children from me.
    Mr. Burton. Let me--Ms. Harty, when she testified, said 
earlier that one of the women from the consulate, when they 
were in there with the three Saudi men, advised you not to sign 
that paper. Did any of them say, don't sign the paper?
    Ms. Saga. No.
    Mr. Burton. All they said was what?
    Ms. Saga. That this is your choice. If you want to sign, 
sign. If you don't want, this is up to you.
    Mr. Burton. But they didn't advise you to wait or to look 
at it or think about it or----
    Ms. Saga. No.
    Mr. Burton. Nothing. And they didn't say, don't sign it.
    Ms. Saga. No.
    Mr. Burton. Did they advise you to sign the paper the next 
day? Did they come up with the paper the next day?
    Ms. Saga. They gave me the paper and said, look, this is 
something that we can correct the other paper with.
    Mr. Burton. Did they bring that paper in without you asking 
for it?
    Ms. Saga. Yeah.
    Mr. Burton. In other words, they just brought it in and 
said, this will correct what happened yesterday.
    Ms. Saga. Yeah. Because I talked to the consular general 
and I said, look, I don't want that paper to be--you know, if 
you can just tear the paper or do anything, I made a mistake by 
signing that paper, so, please, I want to--I don't want that 
paper to be--that's not the thing I want.
    Mr. Burton. And so they brought the paper in later after 
that.
    Ms. Saga. Yes.
    Mr. Burton. OK. Now, I know this is just your opinion, or 
maybe you could just tell us, what do you think the U.S. 
consulate office and our consulars over there could have done 
to help you that they didn't do?
    Ms. Saga. Well, what I think is at least they could have 
asked for my children with the Saudis, because they were 
talking with the Saudis all the time. And they didn't--you 
know, I didn't feel like they were cooperating in my children's 
case.
    Mr. Burton. They wouldn't help you get your children. They 
said they would help you get out, but they didn't----
    Ms. Saga. Yes, for me it was OK to get out. But for my 
children it was hard for them to do that. And so they were 
leaving the thing up to my husband.
    Mr. Burton. OK. Ms. Watson, do you have any questions you'd 
like to ask?
    Ms. Watson. When the paper was in front of you, did they 
explain to you at all what was on that paper and what you would 
be committing to?
    Ms. Saga. They only gave me the paper to read. And they 
said, you read the paper, and they were telling me that's what 
they came--I mean, that's what they thought, it is something 
which is going to help in my case.
    Ms. Watson. Did at any time they talk about you as an 
American citizen and what your rights as an American citizen 
are?
    Ms. Saga. They told me that I can have an American 
passport, but I was told also that I have to have an exit 
permission from the Saudi ministry, even if I am an American. 
So either--both ways, I mean, if I went out on my Saudi 
nationality or my American nationality I would have to have the 
permission of the Saudi Government. That's what they told me.
    Ms. Watson. Were they talking about a visa when they talked 
about an exit permit?
    Ms. Saga. I don't remember the name, but it was something 
like a visa, permission for me to get out of Saudi Arabia.
    Ms. Watson. What I'm getting to, I want to know, did the 
consular from the American Embassy explain to you your rights 
and explain to you your rights in connection with the children 
whose father was Saudi Arabian? I'm trying to get to that kind 
of conversation.
    Ms. Saga. Do you mean my rights in going out of Saudi 
Arabia?
    Ms. Watson. And your children's.
    Ms. Saga. And my children. Well, as I said, they kept 
telling me that I can go out as American alone, but if I want 
to take my children, they have--because they have no American 
passports, so they would have to have their father's permission 
going out of the country. And I was told also that even if I'm 
an American citizen I have to have the government's permission 
to get out.
    Ms. Watson. When you initially took your children and went 
to the consulate or the Embassy, were you aware of what was 
required of you? Did you have any idea what was required of you 
and the children to leave Saudi Arabia?
    Ms. Saga. Actually, I knew it wasn't going to be easy, 
because there is--the people there are stubborn. They won't let 
me easily go out. But I hoped by talking to the American people 
here and to the media and by the help of the government I would 
take my children with me.
    Ms. Watson. What I'm really getting to in asking these 
questions is the procedure inside the Embassy. I was a former 
Ambassador, too, and I know what happened in my Embassy. I 
think it's incumbent on the Embassy staff, the consulars that 
deal with passports and visas, to walk you through your legal 
steps; and I don't know if I've heard you say that they walked 
you through it.
    So you had an understanding, I heard you say, before you 
came you knew it wouldn't be easy, it would be difficult 
because the people were so stubborn. But I think the consular 
should have explained to you legally so that you would 
understand what you were up against and walk you through it. So 
I can't quite make out if you knew exactly once you got there 
what your legal rights were and were not and how they could 
help and could not help.
    Ms. Saga. Nobody at all talked to me about my legal rights. 
And all that they did, they gave me the application for the 
passport and I filled that application. That's all. I--no one 
ever spoke to me about my legal rights and what I should do and 
what I should do because I wasn't familiar with the American 
law. I lived there all my life.
    Ms. Watson. I think your case is probably not unusual in 
countries like that.
    That's the reason why I made my statement, Mr. Chairman, 
because I was trying to put it in that framework. It's 
difficult for women in many of these countries, not only in the 
Middle East but Southeast Asia, down the Pacific; and I think 
there's something that we need to do in terms of our State 
Department process wherever we have an Embassy and someone 
looks for refuge there.
    Particularly in your case and other American women like 
you, there should be a procedure--and I want you to respond--
that will let you know exactly what your rights are, rather 
than encouraging you to go back into a situation that would put 
you at high risk. And we know the risk.
    I thank the chairman--thank you for holding these hearings. 
Because we have heard from people just like yourself, the 
actual facts to their captivity. I like to call it captivity.
    But, anyway, we might be able to, through legislation, 
develop a procedure so you will know exactly what you're going 
into when you leave to go--and if you go into a consulate, if 
you go into an Embassy, what to expect. They should walk you 
through so you will know your legal rights and your children's 
rights and the rights of the person whose country you're in. 
That would be helpful to you so when you call your mother you 
can say, look, I can't get the kids out, but I can get out and 
maybe we can fight in the courts, the international courts, to 
get our children.
    But would that be helpful? Is that a step that we need to 
take?
    Ms. Saga. Yeah. Actually, it would be helpful, but the case 
in Saudi Arabia is the power of men over there.
    Ms. Watson. Exactly.
    Ms. Saga. Even if the woman knew that when she goes to the 
consulate or an Embassy she should do this and this and this, 
but--and she couldn't do this and this, but the problem is, if 
there is anything, I mean, to help the women over there, 
because I think this is the country where a lot of women are 
unable to come forward and say that I want to get out of here. 
And if there is anything which can help those women, I mean, to 
make the power of those men less on those poor women, I would 
say that would be a great thing to do.
    Ms. Watson. Thank you. It is broader and bigger than just 
your case. It is the case of all womankind in these developing 
or underdeveloped countries and their treatment of women. It is 
a struggle for women's rights.
    Ms. Saga. Yes.
    Ms. Watson. Thank you so much for your testimony, and thank 
you so much for your responses.
    Mr. Burton. Let me just add--thank you, Ms. Watson.
    Let me just ask a couple more questions, and then I will 
yield to Mr. Ose in case he has any questions since he's 
returned.
    Do you still fear your father? As I understand, he has a 
visa to come to the United States and works for, was it, a U.S. 
company?
    Ms. Saga. He lived here and studied here. He married my 
mother. So he have--he has a green card, so he can come freely 
here.
    Mr. Burton. He has a company that has business here in the 
United States?
    Ms. Saga. Yes. He works for Aramco.
    Mr. Burton. Aramco?
    Ms. Saga. Aramco.
    Mr. Burton. Does he travel back and forth to the United 
States?
    Ms. Saga. I don't know, really. He have trouble several 
times, but he doesn't tell.
    Mr. Burton. But you still have concerns about your safety?
    Ms. Saga. Yes.
    Mr. Burton. Do you think that he would hurt you if he had a 
chance?
    Ms. Saga. Yes.
    Mr. Burton. Now I know you can't speak from experience or 
from personal knowledge, but do you think there is a lot of 
women--American women over in Saudi Arabia that would like to 
leave there that are suffering from the same kind of problems 
you do?
    Ms. Saga. Yes. Yes.
    Mr. Burton. Did you know of any others that you think would 
like to leave if they could?
    Ms. Saga. Well----
    Mr. Burton. You don't have to give their names or anything.
    Ms. Saga. No, actually, personally, I didn't know someone 
who wants to get out. But I know some women--American women 
over there which have--they had problems, divorce problems and 
problems with the children, and I've heard stories about them. 
And from the--I think most of the families there have the same 
story: A man goes to the USA, and he marries a woman and have 
children, and then the problem begins.
    Mr. Burton. He, in effect, owns them.
    Ms. Saga. Yes.
    Mr. Burton. Is there anything else that you would like to 
say maybe?
    Let me yield to my colleague, Mr. Ose, first to see if he 
has any questions, and then we will ask your mother if she 
wants to make any comments.
    Mr. Ose. I would be happy to get my own time, Mr. Chairman.
    Mr. Burton. Go ahead.
    Mr. Ose. OK. I just want to clarify something.
    I apologize for having to leave. I got scheduled into the 
Chair over on the floor from 3 to 4.
    I just want to clarify something. I understand that the 
representative from the Saudi Embassy did not show, Mr. 
Chairman? The representative from the Saudi Embassy did not 
show?
    Mr. Burton. No. They sent a statement over from the Saudi 
Embassy, and she was supposed to testify, but she didn't show 
up.
    Mr. Ose. And I also understand that there was a discussion 
here about Ms. Saga's citizenship in the sense that she had not 
spent the requisite 5 years continuously in the States in order 
for transmission to take place, is that accurate?
    Mr. Burton. As far as the children are concerned, right.
    Mr. Ose. So if I understand the following on to that 
particular thing, I just want to say, Ms. Saga, Ms. Dornier, 
this isn't directed to you. I just want clarification. If I 
understand then, the fact that our government and our State 
Department cannot, if you will, for lack of a better term, 
liberate these children, they are in effect being asked to 
relinquish that which billions of people seek but their own 
government can't protect, which is their citizenship. They are 
held hostage in a foreign country to a date certain beyond 
which they cannot comply with the laws of this country to 
effectuate transmission? Do I understand that correctly?
    Mr. Burton. That is correct. The lady that testified 
earlier, Ms. Harty, she indicated that there is a provision in 
law that allows them to, if they come to the United States, to 
stay while seeking citizenship. But as far as being citizens 
with the rights of the United States, they aren't.
    Mr. Ose. I may have missed this discussion. Was there any 
discussion from Ms. Harty about accommodating or addressing the 
circumstances under which a child, a minor, whose actions and 
activities are--frankly, are legally constrained in the first 
place, but where the presence of a minor in a foreign country, 
physically prevented from coming here, loses their citizenship? 
There is no provision in the law for addressing that?
    Mr. Burton. According to the law as it has been presented 
to me and as she mentioned in her comments, if the parent, the 
mother has been out of the country for more than 5 years and 
she was a minor when she went over there, her children, the 
issue of that marriage is not considered an American citizen. 
But they will allow them to come to the United States under a 
visa, and then they can go ahead and make application for 
citizenship.
    Mr. Ose. So if I understand--I had a constituent. She moved 
to San Francisco, as I recall. She had two daughters who were 
abducted and remained in Saudi Arabia. They have now become of 
majority age under our laws. They have lost their citizenship?
    Mr. Burton. No. No. She was an American citizen when she 
had the children.
    Mr. Ose. Correct. So the children were not here for the 
requisite number of years.
    Mr. Burton. No, they are talking about the parent. If the 
parent was out of the country for 5 years and they had 
children, those children did not gain American citizenship as a 
birthright like you would if you were born here.
    Mr. Ose. So what if the parent comes back, but the children 
do not?
    Mr. Burton. Well, that is the problem we have right here.
    Mr. Ose. That is my point. I have a former constituent----
    Mr. Burton. Her children in effect have no rights as an 
American citizen, even though they were born of an American 
citizen.
    Mr. Ose. I dare say the Saudis know this.
    Mr. Burton. They do know this.
    Mr. Ose. I have to say, Mr. Chairman, I am somewhat pleased 
to see the administration start moving our military to Qatar 
and Kuwait and Bahrain. It gives me a great deal of pleasure to 
understand that we are at least taking what appear to be some 
steps to no longer defend that which is indefensible.
    And I don't have any questions for Ms. Saga. I mean, I 
can't tell you how pleased I am to have you home. I mean, as I 
understand, you are in Fresno, which is, if you will, down 
valley from where I am. And I am pleased you are here. I am 
sorry your children are still there.
    Ms. Saga. Thank you.
    Mr. Ose. I just--Mr. Chairman, I am at a loss for words.
    Mr. Burton. Well, thank you, Mr. Ose.
    I think we have covered just about everything.
    Ms. Dornier, do you have any comments you would like to 
make since you are here for your daughter for the first time in 
a long time?
    Ms. Dornier. I apologize. I thought that I was going to 
have a chance to make a statement, and so I did prepare 
something. Is that possible?
    Mr. Burton. Sure. You are welcome to that right now.

       STATEMENT OF DEBBIE DORNIER, MOTHER OF SARAH SAGA

    Ms. Dornier. Thank you very much.
    In 1975, I met a man who called himself Steve and appeared 
to be an American. We dated, and later I found out that I was--
once I was already involved with him, that he actually was a 
Saudi named Waheed Saga. And many asked why I married him. To 
me, he was different from the other Arabs. He was very 
Americanized.
    We married; and over the years he changed, especially after 
Sarah our child was born in 1979. He became more abusive and 
unreasonable; and in our divorce negotiations, he wanted to 
take her, then age 3, to be raised by his mom. I got him to 
compromise by agreeing to allow her to visit his family in the 
summers, knowing that his family had been very supportive of me 
in the past.
    Initially, he did this, but then in 1985 he took her and 
refused to return her. I offered to go be his mother's maid so 
I could just be with her. This plan seemed to be progressing, 
but he said I would have to give up my American citizenship, 
marry him, and become a Saudi. After the advice of my family 
and much prayer, I decided that I could have more success from 
here than from there.
    Once informed of this decision to stay here, he cut me off 
from all contact with Sarah, and what ensued was years of 
silence. I tried to get a bench warrant and take legal action 
against him, but all avenues required my notification of him of 
my efforts. This I could not do, because in our first 
conversations after the kidnapping, he promised me he would 
kill Sarah if I tried to get her back, saying she was better 
dead than ever returning to this evil country. Even to this 
day, members of his own family believe he would do this without 
a second thought.
    The State Department at the time promised they would have 
record and passport available to her if she could ever get to 
the Embassy but that they could not risk relations for Saudi 
Arabia for one child.
    To say I was upset would be a gross understatement. My 
hands were tied at every turn. I decided not to risk her life 
by going to the media and prayed that in time things would 
change.
    Then, in 2000, just 1 month after we celebrated Sarah's 
21st birthday, telling the younger family members stories about 
her and celebrating who she was, she called. The tremendous joy 
was so incredible. She was alive.
    We renewed our relationship, and the tales of abuse and 
torture she told me broke my heart. But at least we were in 
contact again. Then 1 day, after many attempts to try to get 
her husband to let us meet, she said, mom, I can't live this 
way anymore. I have to take my children and get them out of 
here. And so began our quest to help Sarah come home with her 
babies.
    We heard of Pat Rausch via Internet searches on Saudi 
abductions, and she along with others helped tremendously in 
the coming months to facilitate Sarah's escape. Ultimately, 
Sarah was able to get her husband to take her to see her 
grandparents near the consulate in Jeddah, and that evening 
there in California I waited what seemed endless hours to hear 
if she had safely made it into the refuge of the consulate. 
Never did I expect that first call would reveal that the people 
there at the consulate would already have tried to convince 
Sarah to go back home.
    In the days to come, I had to explain to officials that in 
fact her life was in danger if she left the consulate compound. 
She was constantly telling me that she had meeting after 
meeting. Each time they gave no hope to help her get her kids 
out. The consular officials were unwilling to represent Sarah's 
best interests over that of the Saudis.
    First they told me they were not equipped to have Sarah 
there because someone else had sought refuge there and was 
using the apartment. When convinced that Sarah was unable to 
leave, then I was told--they told me that I need to send money 
for Sarah and the kids to eat because the consulate had no 
funds to pay for their food.
    Even Matthew Gillen from Overseas Citizens Services didn't 
tell me he was supposed to be my Stateside, State Department 
contact until the Fox News correspondent found out for me days 
after our first conversations. We had spoken a few times to 
facilitate getting money to Sarah and briefly get background 
details on her case, but that was all. It seemed that no one 
wanted to help Sarah come with her kids from there.
    On one occasion I asked Mr. Gillen to have officials stop 
pressuring Sarah to sign documents of which she could not know 
the legal ramification or even understand without legal advice. 
He said he could not do this; she was an adult and could make 
her own decisions. When I pressed the issue, I explained that 
by leaving at six she had no concept of her rights under 
American law; and I suggested that--he suggested that I was 
making a big deal out of the issue, but that there were lots of 
lawyers the consulate might be willing to work with, and he 
could fax me a list. When I received the list, they were all 
Saudi men in Saudi Arabia who could not be necessarily assured 
that they would represent Sarah and her children's best 
interest over that of the Saudis.
    By the time I had procured an American lawyer, they had not 
only refused to fax us a copy of the documents they were having 
her sign but had already worn her down to the point of 
exhaustion mentally and physically such that she agreed to take 
the best deal that she could get to keep contact with her kids 
and come home to continue the fight for their freedom.
    To date, every promise made to her at that time to keep 
contact with her children has already been broken. She has only 
been allowed to hear her children's voices in the background of 
phone calls and not to speak to them. The loss is unbearable 
for her. But we stand together to fight for as long as it takes 
for her children to come home.
    As always, we remain concerned that her father Waheed Saga 
holds a green card to the United States and works for an 
American company Aramco there in Yanbu, Saudi Arabia. We have 
no doubt that, if he could, he would silence us both for good. 
To date, we have not been successful in preventing his entry 
into the United States as a deterrent to further violence 
against my daughter or myself.
    Ms. Harty said that now Saudis are saying that adults will 
be allowed to return, but let me point out that by that time 
they will most likely be mothers themselves and required to 
leave their own children behind, perpetuating to a new 
generation this atrocity.
    In closing, let me just say that if a woman must go through 
what Sarah did at the hands of her own government consular 
officials, I am sure few will flee for home. As Sarah told me 
herself, they could have easily been Saudis, not Americans, as 
they were preoccupied with saving Saudi pride and their 
business relationship with Saudi Arabia, rather than her rights 
as an American. Even as she left, they told her one more time 
to avoid the media as it might embarrass them.
    Freedom of speech is one of the most precious freedoms our 
great forefathers have left to us. Representatives in our 
consulate in Saudi Arabia might do well to remember such is the 
great heritage of all Americans. Thank you.
    Mr. Burton. Ms. Dornier, let me just say that I apologize 
for not letting you make your statement earlier. We were 
anxious to hear from your daughter and hear her story. But that 
was a very moving presentation, and I hope that everybody who 
heard it will take it to heart.
    Ms. Dornier. Thank you.
    [The prepared statement of Ms. Dornier follows:]

    [GRAPHIC] [TIFF OMITTED] T9969.036
    
    [GRAPHIC] [TIFF OMITTED] T9969.037
    
    [GRAPHIC] [TIFF OMITTED] T9969.038
    
    [GRAPHIC] [TIFF OMITTED] T9969.039
    
    [GRAPHIC] [TIFF OMITTED] T9969.040
    
    [GRAPHIC] [TIFF OMITTED] T9969.041
    
    [GRAPHIC] [TIFF OMITTED] T9969.042
    
    [GRAPHIC] [TIFF OMITTED] T9969.043
    
    [GRAPHIC] [TIFF OMITTED] T9969.044
    
    [GRAPHIC] [TIFF OMITTED] T9969.045
    
    [GRAPHIC] [TIFF OMITTED] T9969.046
    
    Mr. Burton. Do you have any more questions, Ms. Watson?
    Ms. Watson. I don't have a question. I just have a comment, 
Mr. Chairman; and, again, I want to thank you for pursuing 
this.
    I feel very deeply the experiences you have and the fact 
that I think our government has really let you down. I saw it 
occurring in my own Embassy where I had to step in, and I 
intend--I want to make this commitment not only to the two of 
you and those in the audience but to the Chair, that I am going 
to pursue this issue and so that we can train our turf--
everywhere we have an Embassy it is U.S. turf--and the people 
on that turf to treat Americans with respect, to treat 
Americans with compassion, to be sure they know their rights, 
and to intercede for them on that post, in that land where they 
are stationed. I think that is the least we can do.
    And your last line confirms it. As Americans, we have an 
obligation to you when you are on this turf, the United States 
of America, or turf sitting in Saudi Arabia or sitting in 
China, we have a responsibility to you.
    There is something missing in the State Department, and I 
can't describe it; that is for another discussion. But you have 
my commitment, and I am sure the Chair will remain committed. 
And, again, thank you.
    Mr. Burton. Let me just end up by saying, first of all, 
thank you, Ms. Watson.
    It is nice to have you back. We will continue to work to 
see if there is something that can be done to bring your 
children home. I am convinced there are hundreds, maybe 
thousands of women like you in Saudi Arabia who would like to 
come back.
    One woman told me: Just put me in a box with my kids, stick 
me anyplace on a plane, just get us out of here. And she told 
me her husband would kill her, and she gave detailed 
information on how he would kill her which I am not at liberty 
to talk about because he might know who she is if it was on 
television.
    But we had a number of stories like that. So I know there 
is a lot of women like that.
    The one thing I will say about our consulate and our 
Embassy, years ago, Monica Stowers took her kids to the Embassy 
in Riyadh, and the consular officer there took her and her 
children escorted by Marines, who didn't want to do this, to 
the front gate and put her out on the street. She was arrested 
and her children stayed there and her daughter was married off 
when she was 12 years old. And Pat Rausch has gone through a 
similar situation.
    Those sorts of things hopefully won't occur anymore, 
because now they will be not kicked out on the street. There is 
a long way to go, and I think we covered a lot of that today, 
and we are going to work with the State Department and try to 
convince them that we have got to be tougher on the Saudis and 
others who are taking away the liberties of American citizens.
    If somebody kidnaps a child from America, whether Saudi 
Arabia, Germany or anyplace in the world, we ought to have some 
kind of an agreement with them that those people will be sent 
back for prosecution because they violated American law, and 
American law must not be superseded by the Saudi law or any 
other law in the world.
    With that, I want to thank you very much for being here. We 
really appreciate it.
    Ms. Watson is, I think, as she said, a former Ambassador. 
She a real tiger. And she and I will work together to see if we 
can't get some steps taken in the right direction to solve 
these problems.
    Thank you very much for being here, and God bless you.
    Ms. Saga. Thank you very much.
    Mr. Burton. Thank you. We stand adjourned.
    [Whereupon, at 4:27 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9969.047

[GRAPHIC] [TIFF OMITTED] T9969.048

[GRAPHIC] [TIFF OMITTED] T9969.049

[GRAPHIC] [TIFF OMITTED] T9969.050

[GRAPHIC] [TIFF OMITTED] T9969.051

[GRAPHIC] [TIFF OMITTED] T9969.052

[GRAPHIC] [TIFF OMITTED] T9969.053

[GRAPHIC] [TIFF OMITTED] T9969.054

[GRAPHIC] [TIFF OMITTED] T9969.055

[GRAPHIC] [TIFF OMITTED] T9969.056

[GRAPHIC] [TIFF OMITTED] T9969.057

[GRAPHIC] [TIFF OMITTED] T9969.058

[GRAPHIC] [TIFF OMITTED] T9969.059

[GRAPHIC] [TIFF OMITTED] T9969.060

[GRAPHIC] [TIFF OMITTED] T9969.061

[GRAPHIC] [TIFF OMITTED] T9969.062

[GRAPHIC] [TIFF OMITTED] T9969.063

[GRAPHIC] [TIFF OMITTED] T9969.064

[GRAPHIC] [TIFF OMITTED] T9969.065

[GRAPHIC] [TIFF OMITTED] T9969.066

[GRAPHIC] [TIFF OMITTED] T9969.067


</pre></body></html>
